                            Final Vouchers Audit for
                               TIRNO-95-D-00065

                                   October 2004

                      Reference Number: 2005-1C-003




This report has cleared the Treasury Inspector General for Tax Administration disclosure
review process and information determined to be restricted from public release has been
                              redacted from this document.
                                     DEPARTMENT OF THE TREASURY
                                        WASHINGTON, D.C. 20220



INSPECTOR GENERAL
      for TAX
  ADMINISTRATION



                                          October 15, 2004


       MEMORANDUM FOR DAVID A. GRANT
                      DIRECTOR OF PROCUREMENT
                      INTERNAL REVENUE SERVICE



       FROM:                  Daniel R. Devlin
                              Assistant Inspector General for Audit (Headquarters Operations
                              and Exempt Organizations Programs)

       SUBJECT:               Final Vouchers Audit for TIRNO-95-D-00065
                              (Audit #20051C0202)


       In response to your request, the Defense Contract Audit Agency (DCAA) examined the
       final voucher numbers 31, 43 (revised), 28, 18, 42, 22, 13, 22, 23, 16, 27, 20, and 21,
       respectively, issued under contract number TIRNO-95-D-00065, delivery order numbers
       0004, 0016, 0019, 0020, 0022, 0023, 0027, 0028, 0030, 0032, 0033, 0034, and 0035.
       The purpose of the examination was to determine the allowable costs and fees under
       the delivery orders.
       The DCAA opined that the final vouchers for the delivery orders issued under the
       contract are acceptable for processing. The DCAA indicated claimed costs represent
       costs which are considered allowable under the delivery orders and are therefore
       reimbursable. Additionally, the DCAA stated that the contractor’s accounting and billing
       systems are generally considered adequate to ensure final vouchers are based on
       allowable cost and fee data.
       The information in this report should not be used for purposes other than those intended
       without prior consultation with the Treasury Inspector General for Tax Administration
       regarding their applicability.
       If you have any questions, please contact me at (202) 622-8500 or John R. Wright,
       Director, at (202) 927-7077.


       Attachment
                                NOTICE:
The Office of Inspector General for Tax Administration has no objection to the
release of this report, at the discretion of the contracting officer, to duly
authorized representatives of the contractor.

The contractor information contained in this report is proprietary information. The
restrictions of 18 U.S.C. § 1905 must be followed in releasing any information to
the public.

This report may not be released without the approval of this office, except to an
agency requesting the report for use in negotiating or administering a contract
with the contractor.

                  The TIGTA seal was removed due to its size.
